       Written Testimony of H. David Kotz
             Inspector General of the
       Securities and Exchange Commission




 Before the Subcommittee on Financial Services and
General Government, Committee on Appropriations,
            U.S. House of Representatives

           Thursday, February 10, 2011
                   10:00 a.m.
                                       Introduction

       Thank you for the opportunity to testify before this Subcommittee with respect to

the Securities and Exchange Commission (SEC or Commission). I appreciate the interest

of the members of the Subcommittee in the SEC and the Office of Inspector General

(OIG). In my testimony, I am representing the OIG, and the views that I express are

those of my Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

                                     Role of the OIG

       I would like to begin my remarks by briefly discussing the role of my Office and

the oversight efforts we have undertaken during the past few years. The OIG is an

independent office within the SEC that conducts audits of programs and operations of the

Commission and investigations into allegations of misconduct by agency staff or

contractors. The OIG, in accordance with the Inspector General Act of 1978, as

amended, does not make policy decisions for the SEC and/or substantive determinations

regarding the Commission’s program functions or budgetary process. Rather, the OIG’s

mission is to promote the integrity, efficiency and effectiveness of the programs and

operations of the SEC and to report its findings and recommendations to the agency and

to Congress. Since my appointment as Inspector General of the SEC in December 2007,

the OIG’s investigative and audit units have engaged in aggressive and vigorous

oversight of the SEC.

                                SEC OIG Investigations

       The Office’s investigations unit has conducted numerous comprehensive

investigations into significant failures of the SEC in accomplishing its regulatory mission,




                                             1
as well as investigations into allegations of violations of statutes, rules and regulations,

and other misconduct by Commission employees and contractors. Several of these

investigations involved senior-level Commission officials and represent matters of great

concern to the Commission, Congressional officials and the general public. Where

appropriate, we have reported evidence of improper conduct and made recommendations

for disciplinary actions, including removal of employees from the Federal service, as well

as recommendations for improvements in agency policies, procedures and practices.

       Specifically, we have issued investigative reports regarding a myriad of

allegations, including claims of failures by the Division of Enforcement (Enforcement) to

pursue investigations vigorously or in a timely manner, improper securities trading by

Commission employees, conflicts of interest by Commission staff, post-employment

violations, unauthorized disclosure of non-public information, procurement violations,

preferential treatment given to prominent persons, retaliatory termination, perjury and

falsification of documents, failure of SEC attorneys to maintain active bar status, and the

misuse of official position, government resources and official time.

       In August 2009, we issued a 457-page report of investigation analyzing the

reasons why the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. This

report was issued after a nine-month investigation in which we conducted 140 interviews

and reviewed approximately 3.7 million e-mails. In March 2010, we issued a thorough

and comprehensive report of investigation regarding the history of the SEC’s

examinations and investigations of Robert Allen Stanford’s alleged $8 billion Ponzi

scheme. More recently, we issued reports on the circumstances surrounding the SEC’s

proposed settlements with Bank of America, which included an analysis of the impact of




                                              2
Bank of America’s status as a Troubled Asset Relief Program (TARP) recipient on the

SEC’s Enforcement action and settlement, and allegations of improper coordination

between the SEC and other governmental entities concerning the SEC’s Enforcement

action against Goldman Sachs & Co.

                                    SEC OIG Audits


       The Office’s audit unit has also issued numerous reports involving matters critical

to SEC programs and operations and the investing public. These have included an

examination of the Commission’s oversight of Bear Stearns and the factors that led to its

collapse, an audit of Enforcement’s practices related to naked short selling complaints

and referrals, a review of the SEC’s bounty program for whistleblowers, an analysis of

the SEC’s oversight of credit rating agencies, an audit of the SEC’s real property and

leasing procurement process and an audit of the FedTraveler travel service. In addition,

following the investigative report related to the Madoff Ponzi scheme described above,

we performed three comprehensive reviews providing the SEC with 69 specific and

concrete recommendations to improve the operations of both Enforcement and the SEC’s

Office of Compliance Inspections and Examinations (OCIE.)


              SEC OIG’s Identification of Waste of Government Funds

       Over the past three years, many of our efforts have been directed at identifying

waste or misuse of government funds by the SEC. We have issued numerous reports in

which we identified waste and inefficiencies, as well as inadequate oversight on the part

of various SEC components. By reviewing our audit and investigative reports issued

over the past three years, we found that the two largest areas in which we have identified




                                            3
significant waste and inefficiencies have been procurement and contracting and costs

relating to real property leasing and office moves.

       In the procurement and contracting area, we have identified numerous

deficiencies in the management and oversight of contracts into which the SEC has

entered, a lack of written internal policies and procedures for administering contracts and

other agreements, a failure to maintain accurate records and data regarding contracts and

agreements, and improprieties in the selection of vendors and the awarding of contracts.

These failures have led to the cancellation of contracts and the expenditure of funds to re-

procure required services.

       In addition, numerous OIG investigations, audits and reviews have revealed

significant excessive costs and inefficiencies in connection with the SEC’s leasing of real

property and the relocation of staff offices. We found numerous situations in which the

SEC made excessive payments that could have been avoided if appropriate policies and

procedures had existed and been followed. We also found that SEC management

approved a project to re-configure internal office staff space at a significant monetary

cost without performing any cost-benefit analysis of the project prior to its undertaking.

An OIG survey to the Commission staff affected by the moves revealed that they were

satisfied with their workplace locations prior to the project and generally felt the project

was a waste of time and money.

                    SEC OIG’s Follow-up on its Recommendations

       In the instances that I described in which our Office found wasteful expenditures

and inefficiencies, we have provided SEC management with detailed descriptions of our

findings, as well as concrete and specific recommendations to alleviate the problems and




                                              4
concerns we identified. We have also followed up to ensure that these recommendations

have been agreed to and are fully implemented. We are pleased to report that the

overwhelming majority of our recommendations have been implemented and,

accordingly, we are confident that the situations we identified have been ameliorated and

will not recur.

                  Funding Necessary to Implement OIG Recommendations

       We have also made recommendations designed to increase the SEC’s oversight

capability and its internal controls. In certain instances, it has been and will be necessary

for the SEC to incur additional expenses in order to implement our recommendations.

For example, after our investigative report found that the SEC failed to respond

appropriately to credible tips and complaints about Bernard Madoff’s operations by

conducting competent examinations and investigations, we made numerous

recommendations designed to reform the SEC’s system for handling tips and complaint

system. The SEC has implemented these recommendations and instituted a new Tip,

Complaint and Referral (TCR) system in order to ensure that complaints received are

acted upon in a timely and appropriate manner at a total cost of approximately $21

million. Additional funding will be required to ensure that the SEC has sufficient

resources to implement many of the recommendations that have arisen, and will arise, out

of our audits, reviews and investigations.

         Identification of Efficiencies Within SEC Operations and Functions

       We are also pleased to report that senior SEC officials, particularly those within

the Office of Information Technology (OIT), have informed us that they are analyzing the

SEC’s operations and functions to identify efficiencies and areas in which costs can be




                                              5
reduced. The SEC’s new Chief Information Officer has recently indicated that he plans

to cancel a $2 million information technology contract that he found not to be cost-

effective. We support and applaud these efforts and will continue to encourage this type

of approach in the future.

                                        Conclusion


       I believe that the SEC’s mission of protecting of investors, maintaining fair,

orderly, and efficient markets, and facilitating capital formation, is more important than

ever. As our nation’s securities exchanges mature into global for-profit competitors,

there is even greater need for sound market regulation. At the same time, the SEC has a

responsibility to utilize government funds in an efficient and effective manner. The OIG

intends to remain vigilant to ensure that scarce government resources are utilized wisely

and cost-effectively and instances of waste and abuse are eliminated.


       I appreciate the interest of the Subcommittee in the SEC and my Office. I believe

that the Subcommittee’s and Congress’s continued involvement with the SEC is helpful

to strengthen the accountability and effectiveness of the Commission. Thank you.




                                             6
